IN THE SUPREME COURT OF THE UNITED STATES
No.
Paul Ross Evans, petitioner,
v.
United States of America, respondent.

PROOF OF SERVICE
I, Eurica Califorrniaa. declare that on this date, December itf, 2019 , as
required by Supreme Court Rule 29, that I have served the enclosed PETITION
FOR A WRIT OF CERTIORARI on each party to the above proceeding or that
party’s counsel, and on every other person required to be served, by depositing an
envelope containing the above document in the United States mail properly
addressed to each of them and with first-class postage prepaid. The names and
addresses of those served are as follows:
Solicitor General of the United States
Room 5616
Department of Justice
f
950 Pennsylvania Avenue, N.W.
Washington, DC 20530-0001
Tel: (202) 514-2203
I declare under penalty of perjury that the foregoing is true and correct.
Executed on December /%. 2019.

ir.
Mr. Eurica Califorrniaa
P.O. Box 791
Haleiwa, HI 96172
Tel: (310) 804-0727
amb@juridic.org

received
dec

30 *

jSllaSsfflKi®

IN THE SUPREME COURT OF THE UNITED STATES
No.
Paul Ross Evans, petitioner,
v.
United States of America, respondent.

CERTIFICATE OF MAILING

I, Eurica Califorrniaa. declare that on this date, December
. 2019, that I
have mailed to the Clerk of the United States Supreme Court the enclosed
PETITION FOR A WRIT OF CERTIORARI by depositing an envelope containing
the above document in the United States mail with first-class postage prepaid and
properly addressed to the Clerk as follows:
Clerk, U.S. Supreme Court
1 First Street, N.E.
Washington, DC 20543
I declare under penalty of perjury that the foregoing is true and correct.
Executed on December

l&. 2019.

Mr. Eurica C/aliforrniaa
P.O. Box 791
Haleiwa, HI 96172
Tel: (310) 804-0727
amb@juridic.org

